             Report No. DODIG-2012-006                       November 1, 2011




 Counter Narcoterrorism Technology Program Office
  Task Orders Had Excess Fees, and the Army Was
                 Incorrectly Billed




                                           SPECIAL WARNING
This report contains information exempt from mandatory disclosure under the Freedom of Information Act.
Exemptions 4 and 5 apply.
Additional Copies
To obtain additional copies of this report, contact the Secondary Reports Distribution
Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
ASBCA                         Armed Services Board of Contract Appeals
CAMO                          Contracting and Acquisition Management Office
CNTPO                         Counter Narcoterrorism Technology Program Office
COR                           Contracting Officer’s Representative
COTR                          Contracting Officer’s Technical Representative
DASA(P)                       Deputy Assistant Secretary of the Army for Procurement
DCAA                          Defense Contract Audit Agency
DFARS                         Defense Federal Acquisition Regulation Supplement
FAR                           Federal Acquisition Regulation
IDIQ                          Indefinite-Delivery, Indefinite-Quantity
IG                            Inspector General
MOCAS                         Mechanization of Contract Administration Services
ODC                           Other Direct Cost
PMR                           Procurement Management Review
SMDC                          Space and Missile Defense Command
USTC                          U.S. Training Center
                                   INSP ECTOR GENERAL
                                  DEPARTM ENT OF DEFENSE
                                    400 ARMY NAVY DRIVE
                               ARLINGTON, VIR GINIA 22202- 4704




                                                                                  November 1, 2011

MEMORANDUM FOR AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Counter Narcoterrorism Technology Program Office Task Orders Had Excess
         Fees, and the Army Was lnconectly Billed (Report No. DODIG-2012-006)

We are providing this report for your review and comment. In August 2007, the Army
awarded indefinite-delivery, indefinite-quantity contracts to five contractors for the
Counter Narcoterrorism Technology Program Office to provide global detection,
monitoring, and dismption ofnarcotenorist activities. The U.S. Army Space and Missile
Defense Command, Contracting and Acquisition Management Office did not properly
manage the task orders included in our review. The task orders contained excess fees on
material and other direct cost contract line items and billing errors on other direct cost
contract line items. We considered management comments on a draft of this report when
preparing the final report.

DoD Directive 7650.3 requires that all recommendations be resolved promptly. The
Director of the U.S. Army Space and Missile Defense Command, Contracting and
Acquisition Management Office's comments were partially responsive. As a result of the
Director's comments, we revised Recommendations A.2.a and A.2.d and redirected
Recommendation B.2. We request additional comments on Recommendations A.2.a,
A.2.b, and A.2.d by December 1, 2011.

If possible, send a .pdf file containing your comments to audacm@dodig.mil. Copies of
your comments must have the actual signature of the authorizing official for your
organization. We are unable to accept the /Signed/ symbol in place of the actual
signature. Ifyou anange to send classified comments electronically, you must send them
over the SECRET Intemet Protocol Router Network (SIPRNET).

~e courtesies extended to the staff. Please direct questions to.
- - - -at (703) 604 - (DSN 664-      .




                                             I1Z . a. 12 f--
                                             v4~A.Bu~
                                               Deputy Assistant Inspector General
                                               Acquisition and Contract Management




                                    SPECIAL JNAfttHPH3
'fhi" t tl'et t t8ntnino inMn nuttion enem~t ft'8Mt tM:Rllfitttu~·   fiisi!l8!itlt'i!   t11Hi9r th9
F1 ttft8111 8f Inf4n mttti8tt Aetu Euttll~tiono 1 tut8 8 Rpftl)'e



                               FOR OFFI@Vib .,SE 01\lL'r'
   Report No. DODIG-2012-006 (Project No. D2011-D000AS-0004.000)                   November 1, 2011

                  Results in Brief: Counter Narcoterrorism
                  Technology Program Office Task Orders Had
                  Excess Fees, and the Army Was Incorrectly
                  Billed
What We Did                                               double billed the Army            for insurance
                                                          charges because the contracting officer’s
We reviewed task orders under the Counter
                                                          representative did not conduct in-depth reviews of
Narcoterrorism Technology Program Office
                                                          invoices. Northrop Grumman officials agreed to
(CNTPO) indefinite-delivery, indefinite-quantity
                                                          issue refunds for the incorrect billings. Resolving
(IDIQ) contract to determine whether the U.S. Space
                                                          these problems could save $1,526,279.
and Missile Defense Command (SMDC)
Contracting and Acquisition Management Office
(CAMO) applied the correct fixed fee to material          What We Recommend
and other direct cost (ODC) contract line items.          The Deputy Assistant Secretary of the Army for
SMDC CAMO did not properly manage the task                Procurement (DASA[P]) should conduct a review of
orders in our review. The task orders contained           contracting officers at the SMDC CAMO. The
excess fees on material and ODC contract line items       Director, SMDC CAMO, should meet with
and billing errors on ODC contract line items.            Raytheon and USTC to reach agreement on the
                                                          return of excess fees paid. The Director of Contract
What We Found                                             Operations Directorate A, SMDC CAMO, should
                                                          ensure that Northrop Grumman refunds the Army
SMDC CAMO contracting officers awarded 25 task
                                                          and coordinate a more detailed invoice approval
orders to 2 contractors that contained fees in excess
                                                          process.
of the rates that were incorporated in the contractors’
IDIQ contracts. This occurred because SMDC
CAMO management did not verify that contract              Management Comments and Our
provisions incorporated into the IDIQ contracts for       Response
fees were clear and specific. In addition, SMDC      The DASA(P) agreed with the recommendation, and
CAMO contracting officers used boilerplate           the comments were responsive. The Director,
language and did not verify the rates used in the    SMDC CAMO, responded on behalf of the Director
IDIQ contracts or task orders. SMDC CAMO             of Contract Operations Directorate A, SMDC
overpaid Raytheon approximately $815,000 and         CAMO, and the Program Director, CNTPO, and
U.S. Training Center (USTC) approximately            partially agreed with the recommendations. The
$77,000 in fixed fees and will overpay               Director agreed that there is a misunderstanding of
approximately $446,000 to Raytheon and               the terms of the contract but disagreed that the
approximately $20,000 to USTC in additional fixed    excess fees of approximately $815,000 paid to
fees if the IDIQ contracts and related open task     Raytheon are recoverable. The Director agreed that
orders are not modified to reflect the correct rates.USTC overbilled fees will be recovered, and
                                                     Northrop Grumman billing errors will be credited to
(FOUO) Northrop Grumman charged the Army for         the Army. We request that the Director, SMDC
         in non-CNTPO work because the contractor CAMO, provide additional comments by
was allowed to directly bill for payment without a   December 1, 2011. Please see the
detailed invoice review. Also, Northrop Grumman      Recommendations Table on the back of this page.
                                        FOR OFFICIAL USE ONLY
                                                   i
Report No. DODIG-2012-006 (Project No. D2011-D000AS-0004.000)          November 1, 2011

Recommendations Table

Management                          Recommendations        No Additional Comments
                                    Requiring Comment      Required
Deputy Assistant Secretary of the                          A.1
Army for Procurement
Director of U.S. Army Space and     A.2.a, A.2.b, A.2.d    A.2.c
Missile Defense Command,
Contracting and Acquisition
Management Office
Director of Contract Operations                            B.1 and 2
Directorate A, U.S. Army Space
and Missile Defense Command,
Contracting and Acquisition
Management Office

Please provide comments by December 1, 2011.




                                              ii
Table of Contents

Introduction                                                             1

      Audit Objective                                                   1
      Background on CNTPO Contracts                                     1
      Internal Control Weaknesses in the Oversight of CNTPO Contracts   2

Finding A. Army Contracting Officials Awarded Task Orders With
Excessive Fixed Fees                                                     3

      Task Order Fees Higher Than Base Contract Fees                     3
      SMDC CAMO Contracting Officials Did Not Implement Controls
       or Reviews                                                        4
      SMDC CAMO Overpaid Fees                                            8
      SMDC CAMO Management Action                                        8
      Conclusion                                                         9
      Management Comments on the Finding and Our Response                9
      Recommendations, Management Comments, and Our Response            12

Finding B. Contractors Billed the Army Incorrectly                      19

      Charge for Non-CNTPO Work                                         19
      Double Billing                                                    19
      Conclusion                                                        20
      Recommendations, Management Comments, and Our Response            20

Appendices

      A. Scope and Methodology                                          22
            Use of Computer-Processed Data                              22
            Prior Coverage                                              23
      B. SMDC CAMO Overpaid Fee Amounts                                 24
      C. Summary of Potential Monetary Benefits                         25

Management Comments

      Deputy Assistant Secretary of the Army for Procurement            26
      U.S. Army Space and Missile Defense Command, Contracting and
       Acquisition Management Office                                    28




                          FOR OFFICIAL USE ONLY
Introduction
Audit Objective
The objective was to determine whether other direct costs (ODCs) were fair and
reasonable in the task orders issued by the DoD Counter Narcoterrorism Technology
Program Office (CNTPO). This audit is one in a series of audits relating to the contracts
supporting the DoD CNTPO. For this audit, we reviewed the application of fixed fees for
task orders. See Appendix A for a discussion of the scope and methodology and prior
audit coverage related to the audit objectives.

DoD Inspector General (IG) Report No. D-2009-109, “Contracts Supporting the DoD
Counter Narcoterrorism Technology Program Office,” September 25, 2009, found that
contracting and program office personnel were not performing adequate management and
oversight of the CNTPO task orders. The report also identified a significantly high-dollar
value of ODCs compared to the overall task order values; approximately 34 percent of
the total potential contract dollar value was ODCs. As a result, we announced this audit
to review ODCs.

Background on CNTPO Contracts
The mission of the CNTPO is to execute the Defense Department’s strategy to provide
global detection, monitoring, and disruption of narcoterrorist activities through effective
interagency mission support, technology, and acquisition solutions. CNTPO provides its
services to DoD, other Federal agencies, partner nations, and State and local authorities
engaged in counterdrug and counter narcoterrorism operations. The Naval Surface
Warfare Center, Dahlgren Division, serves as the host command for CNTPO. The
CNTPO reports to the Deputy Assistant Secretary of Defense for Counter Narcotics,
Counter Proliferation, and Global Threats. The Deputy Assistant Secretary of Defense
reports to the Under Secretary of Defense for Policy.

The U.S. Army Space and Missile Defense Command (SMDC) (also referred to as the
Army Forces Strategic Command) Contracting and Acquisition Management Office
(CAMO), provides contracting support for CNTPO. SMDC CAMO awarded five
indefinite-delivery, indefinite-quantity (IDIQ) contracts on August 24, 2007. The
CNTPO IDIQ contracts have a total program ceiling of $15 billion with a 5-year period
of performance, composed of a base year and 4 option years. SMDC CAMO contracting
officials issued the IDIQ contracts to five prime contractors:
    x ARINC, Inc. (ARINC);
    x Lockheed Martin Integrated Systems, Inc. (Lockheed Martin);
    x Northrop Grumman Space & Mission Systems Corporation (Northrop Grumman)
        (formerly TASC, Inc.);
    x Raytheon Technical Services Company LLC (Raytheon); and
    x U.S. Training Center, Inc. (USTC) (formerly Blackwater Lodge and Training,
        Inc.).


                                             1
The CNTPO IDIQ contracts allow for three task order types—firm-fixed-price, level-of-
effort for labor; cost-plus-fixed-fee1 for material and ODCs; and cost-reimbursable for
travel and insurance. The contractors will provide services in three main areas:
technology development and application; training, operations, and logistics support; and
professional and executive support. Contractors are conducting CNTPO efforts globally,
with the highest concentration of work being performed in Southwest Asia (Afghanistan,
Iraq, Kazakhstan, and Pakistan), South America (Belize, Colombia, Peru), and the United
States. For specific details regarding the scope of our review, see Appendix A.

Internal Control Weaknesses in the Oversight of CNTPO
Contracts
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provide reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. The Director, SMDC CAMO
(also holds the title of Principal Assistant Responsible for Contracting), and the Director
of Contract Operations Directorate A, SMDC CAMO (Director of Directorate A), did not
implement internal controls to verify that contracting officers issued task orders with the
accurate fee information. In addition, SMDC CAMO contracting officers used
boilerplate language and did not verify the rates used in the base IDIQ contracts or task
orders. For specific results of these weaknesses, see Finding A of the report.
Implementing recommendations in Finding A and B could result in potential monetary
benefits of approximately $1.5 million (Appendix C). We will provide a copy of the
report to the senior official responsible for internal controls in the Army.




1
    A fixed fee is a negotiated fee that is set at the inception of the contract.

                                                           2
Finding A. Army Contracting Officials
Awarded Task Orders With Excessive Fixed
Fees
SMDC CAMO contracting officers awarded 25 task orders to 2 contractors that contained
fixed fees on material and ODCs in excess of the rates that were incorporated in the
contractors’ base IDIQ contracts. This occurred because SMDC CAMO management did
not verify that contract provisions incorporated into the base IDIQ contracts for fees were
clear and specific. In addition, SMDC CAMO contracting officers used boilerplate
language and did not verify the rates used in the base IDIQ contracts or task orders. As a
result, SMDC CAMO overpaid Raytheon approximately $815,000 and USTC
approximately $77,000 in fixed fees and will overpay approximately $446,000 more to
Raytheon and $20,000 more to USTC if the contracting officers do not immediately
modify both the IDIQ contracts and related open task orders to reflect the correct fixed
fees.

Task Order Fees Higher Than Base Contract Fees
(FOUO) SMDC CAMO contracting officers awarded task orders to Raytheon and USTC
containing fixed fees that exceeded rates incorporated into the base IDIQ contracts for
material and ODC contract line items. The solicitation for the IDIQ contract allowed
contractors to propose up to a 5-percent fixed fee on material and ODCs. Raytheon
proposed a -percent fee, and USTC proposed a         -percent fee in their final proposal
revisions to the IDIQ solicitation. A source selection panel selected contractors based on
an assessment of technical, management, performance, and cost/price factors. Raytheon
and USTC were competitively awarded contracts based, in part, on total costs proposed,
including their respective proposed fixed fees of percent and        percent.

The solicitation also included Federal Acquisition Regulation (FAR) Clause 52.215-1,
“Instructions to Offerors—Competitive Acquisition,” that states, “a written award or
acceptance of proposal mailed or otherwise furnished to the successful offeror within the
time specified in the proposal shall result in a binding contract without further action by
either party.” SMDC CAMO entered into binding contracts with Raytheon and USTC by
accepting their final proposal revisions and offering awards, in accordance with the FAR.

An Armed Services Board of Contract Appeals (ASBCA) case discussed fees as
incorporated into cost proposals. Specifically, the ASBCA stated in its decision in the
“Appeal of Scientific Management Associates, Inc.,” ASBCA No. 50956, 2000-1 B.C.A.
(CCH) P30, 828, 2000 ASBCA LEXIS 39, March 8, 2000, that contractors are
contractually bound by the terms of a cost proposal incorporated into the contract.

(FOUO) FAR Clause 52.216-18, “Ordering,” was incorporated into the Raytheon and
USTC base IDIQ contracts. It states that, “all delivery orders or task orders are subject to
the terms and conditions of this contract. In the event of conflict between a delivery
order or task order and this contract, the contract shall control.” The IDIQ contracts
                              FOR OFFICIAL USE ONLY
                                              3
(FOUO) stated, “All task orders are subject to the terms and conditions of the basic
contract. In the event of a conflict between a [task order] and the basic contract, the basic
contract will take precedence.” Although the percent and          percent proposed by
Raytheon and USTC, respectively, were incorporated into the basic IDIQ contracts,
SMDC CAMO awarded 14 Raytheon task orders and 11 USTC task orders with fees in
excess of the proposed rates. See Appendix B.

SMDC CAMO Contracting Officials Did Not Implement
Controls or Reviews
SMDC CAMO management, specifically the Director of SMDC CAMO and the Director
of Directorate A, did not verify that contract provisions incorporated into the base IDIQ
contracts for fees were clear and specific or that the contracting officers accurately
prepared task orders. Inadequate management of the CNTPO task orders was also
identified in a prior DoD IG report.

Additional Findings on SMDC CAMO Contract Oversight
DoD IG Report No. D-2009-109, “Contracts Supporting the DoD Counter
Narcoterrorism Technology Program Office,” September 25, 2009, found that SMDC
CAMO contracting officials did not have adequate internal controls for managing and
administering CNTPO IDIQ contracts. Specifically, the report stated that contracting
officers did not properly manage task orders, conduct adequate contract surveillance,
ensure that contractor billing was accurate or that the goods and services were received.
The DoD IG recommended that the contracting officers receive required training. The
Director, SMDC CAMO, stated in her comments on the draft report that SMDC CAMO
conducted training reviews semiannually, and that contracting officers had necessary
certifications.

The DoD IG also recommended that the Director, SMDC CAMO, conduct an
administrative review of contracting officers and take any administrative actions
warranted for the deficiencies identified. The Director, SMDC CAMO, stated in her
comments on the draft report that the report did not identify any specific infractions that
warranted disciplinary actions. The recommendation was redirected to the Deputy
Assistant Secretary of the Army (Procurement) (DASA[P]) in the final report.

The DASA(P) comments on DoD IG Report No. D-2009-109 stated that the Deputy
Assistant Secretary was requiring the Director, SMDC CAMO, to provide a briefing to
address the findings and measures taken to remedy the situation. In addition, the
comments stated that the Deputy Assistant Secretary would conduct a previously
scheduled procurement management review (PMR) and would pay particular attention to
the management of SMDC efforts in support of CNTPO.

The DASA(P) published a memorandum titled, “Department of the Army, Procurement
Management Review (PMR) of the U.S. Army SMDC/ARSTRAT CAMO,”
January 25, 2010. The memorandum stated that the PMR team had assessed the overall
risk of contracting operations as “high,” which means the organization is at risk of
                              FOR OFFICIAL USE ONLY
                                        4
receiving severe criticism or may suffer serious adverse effects to contracting operations
or customer mission requirements because of noncompliance with Federal contracting
regulations. The Deputy Assistant Secretary required SMDC CAMO to submit a
corrective action plan that addressed all recommendations. The Military Deputy to the
DASA(P) published a memorandum titled, “Department of the Army, Procurement
Management Review (PMR) of the U.S. Army Space and Missile Defense Command
(SMDC) Contract Acquisition Management Office (CAMO), 7-16 December 2009,”
April 25, 2010. The memorandum stated that the SMDC CAMO corrective action plan
was approved.

Additionally, after DoD IG Report D-2009-109 was issued, the Director, SMDC CAMO,
separately briefed officials from the Office of the Under Secretary of Defense for
Acquisition, Technology, and Logistics and the DoD IG audit team. The Director,
SMDC CAMO, stated during each briefing that significant progress was made in
implementing corrective action measures for staffing, processes and procedures, and
training. However, we found additional problems with contracts being overseen by
SMDC CAMO that are costing the Army money. The DASA(P) should conduct an
additional review of the performance of the SMDC CAMO contracting officers based on
our latest findings.

Responsibility for Fee Validation Not Clearly Demonstrated
FAR Subpart 1.602-2, “Contracting Officers,” states that contracting officers are
responsible for ensuring compliance with the terms of the contract and safeguarding the
                                     interests of the United States in its contractual
  . . . the Director of Directorate  relationships. However, the Director of Directorate
  A at SMDC CAMO did not             A at SMDC CAMO did not demonstrate a clear
  demonstrate a clear                understanding of the contracting officers’
  understanding of the               responsibility for fee validation. When asked why
  contracting officers’              task orders were issued with excess fees she stated
  responsibility for fee validation. that:

   x   the Defense Contract Audit Agency (DCAA) would typically identify excess fee
       errors during an incurred cost audit;
   x   it is the responsibility of the contracting officer, the contracting officer’s
       representatives (CORs), and the contractor to ensure that the rates in each task
       order are the agreed-to rates; and
   x   all fees should be reviewed as part of awarding a task order.

(FOUO) Because the Director of Directorate A at SMDC CAMO stated that DCAA
would typically identify excess fee errors during an incurred cost audit, we contacted the
supervisory auditors at the DCAA Raytheon and USTC offices. The DCAA Raytheon
and USTC supervisory auditors both stated that the excess fees charged by Raytheon and
USTC, respectively, would not have been identified by DCAA because DCAA does not
normally review fixed fees. They stated that DCAA relies on the task order language to
determine the fixed fee allowed and that DCAA does not refer to the IDIQ contract to
determine whether the fixed fee was incorporated into the contract. The supervisory
                             FOR OFFICIAL USE ONLY
                                             5
(FOUO) auditors stated that because the task orders stated that up to a 5-percent fixed fee
was allowed, DCAA would not have questioned the fees unless they exceeded 5 percent.
The DCAA supervisory auditors at both Raytheon and USTC were unaware that their
respective contractors had proposed (and should have been charging) less than -percent
fixed fee on material and ODCs. Therefore, contracting officers should not rely on
DCAA to identify incorrect fees in an incurred cost audit because DCAA does not
normally review fixed fees.

Because the Director of Directorate A at SMDC CAMO stated that the COR shares the
responsibility of ensuring that the agreed-to rates are in the task order, we contacted the
CNTPO Program Director, Naval Surface Warfare Center Dahlgren Division, to
determine the CORs’ role in evaluating fixed-fee rates for material and ODCs. We asked
the CNTPO Program Director whether the CORs evaluate the fixed fee as part of their
technical review. The Program Director stated that during the technical review of a
proposal, the CORs and contracting officer’s technical representatives (COTRs) review
the overall price to identify any inconsistencies with the Independent Government Cost
Estimate. He also stated the fee is reviewed as part of the overall contract review of
price, from a technical standpoint. In addition, the Program Director stated that price
analysis is conducted by the contracting officers. Therefore, the contracting officers
should not rely on CORs to ensure that the fixed-fee rates in the task orders were correct.

Furthermore, the Director of Directorate A at SMDC CAMO should not rely on the
contractor to ensure that the fixed-fee rates in the contract were the agreed-to rates. FAR
Subpart 7.5, “Inherently Governmental Functions,” states that determining whether
contract costs are reasonable, allocable, and allowable is considered to be an inherently
governmental function. Therefore, the Director of Directorate A at SMDC CAMO
should not rely on the contractor to ensure that the fixed-fee rates in the task order are the
agreed-to rates because the responsibility for determining whether contract costs are
reasonable and allowable is clearly an inherently governmental function.

The Director of Directorate A at SMDC CAMO stated that all fees should be reviewed as
part of awarding a task order. However, the Director of Directorate A did not implement
controls for contract reviews to ensure that fees were reviewed. The Director of
Directorate A and 4 other contracting officers within SMDC CAMO were the signatories
on 25 task orders with excess fixed fees on material and ODCs. If the Director of
Directorate A and the contracting officers had verified the agreed-to fixed fee in the basic
contract against the fixed fee in the task orders, then payment of excess fixed fees would
not have occurred.

The Director of Directorate A at SMDC CAMO should not rely on DCAA to identify
excess fees, or on the COR or the contractor to ensure that fixed fees are correctly applied
to the task orders. The contracting officers should have verified the rates in the basic
contract against the rates used in the task orders, and the Director of Directorate A should
have implemented controls to ensure that these reviews occurred.



                              FOR OFFICIAL USE ONLY
                                        6
SMDC CAMO Contracting Officers Used Boilerplate Language
(FOUO) SMDC CAMO contracting officers included boilerplate language in the IDIQ
base contracts and in the task orders. Amendment 0007, the final amendment to the base
IDIQ solicitation, allowed the contractors to propose a fee on material and ODCs and
stated that a maximum fee of 5 percent was allowed on material and ODC. Raytheon and
USTC proposed -percent and           -percent fixed fees on material and ODC contract line
items, respectively, in their final proposal revisions that were incorporated into the base
contracts. However, the contracting officers issued the base IDIQ contracts and task
orders with language in section B that stated that a maximum of 5-percent fees and a
minimum of 0-percent fees were allowable on material and ODC contract line items.

(FOUO) According to the Director of Directorate A, she asked Raytheon officials why
they applied a fixed fee greater than percent. According to the Director, Raytheon
officials stated that they thought the language in the IDIQ contract and task orders, which
stated that a maximum of 5-percent fee was allowable, was the Government’s
counteroffer to the proposed -percent fee; and therefore, Raytheon could charge up to
  percent. The contracting officers created confusion in the IDIQ and task order
language because they did not specifically state the negotiated fees for the material and
ODC contract line items. Even so, Raytheon and USTC did not comply with their
proposed fee for material and ODC contract line items.

(FOUO) The remaining CNTPO contractors’ (ARINC, Lockheed Martin, and Northrop
Grumman) IDIQ contracts and task orders all included the same boilerplate language as
Raytheon and USTC; however, ARINC, Lockheed Martin, and Northrop Grumman
appropriately charged the fees in accordance with their base IDIQ contracts. The
contracting officers should recover all excess fees that Raytheon collected above their
proposed percent fixed fee and that USTC collected above their proposed -percent
fixed fee on all task orders issued under the CNTPO base contracts.

In accordance with FAR 43.103(a), contracting officers have the authority to issue
bilateral contract modifications to reflect the agreements between the parties modifying
the terms of contracts. Currently, the base IDIQ and task order language remains
ambiguous. The SMDC CAMO contracting officers should clarify the language in the
IDIQ contracts and all open task orders to remove the confusing language and specify the
proposed fee accepted by SMDC CAMO.

SMDC CAMO Contracting Officers Did Not Verify Fixed-Fee
Calculations
The Director of Directorate A and at least four other contracting officers within SMDC
CAMO did not ensure compliance with the terms of the contract, as required by FAR
subpart 1.602-2. SMDC CAMO contracting officers did not verify that fixed fees on
material or ODC contract line items were correctly calculated before the award of task
orders.



                             FOR OFFICIAL USE ONLY
                                       7
(FOUO) Based on the proposals we reviewed, the contracting officers inserted the
contractors’ proposed costs and fees into the contract without verifying that the fees were
correct. For example, USTC’s proposal for task order 0017 included a fixed-fee rate of
        percent on material and ODCs instead of the agreed-to        percent. The dollar
values for costs and fees were added directly into the task order, resulting in excess fees
being transferred from the proposal into the task order. Task order 0017 was signed by
the Director of Directorate A. If the contracting officers had checked the calculations of
the fixed fee for material and ODC contract line items before awarding the task orders,
they would have realized that the fees were incorrect.

SMDC CAMO Overpaid Fees
SMDC CAMO will overpay approximately $1.36 million in fixed fees if the contracting
officers do not modify both the IDIQ contracts and related open task orders to reflect the
correct fixed fees. See Appendix C for summary of potential monetary benefits.

SMDC CAMO overpaid approximately $815,000 in fixed fees for the 14 task orders paid
to Raytheon. Four task orders remain open for Raytheon. SMDC CAMO could overpay
approximately $446,000 in additional fixed fees if the contracting officers do not
immediately modify the remaining open task orders. The Army will overpay more than
approximately $1.26 million in fixed fees on Raytheon’s material and ODC contract line
items. See Appendix B for more information on overpayments.

SMDC CAMO overpaid approximately $77,000 in fixed fees for the 11 task orders paid
to USTC. Three task orders remain open for USTC. SMDC CAMO could overpay
approximately $20,000 in additional fixed fees if the contracting officers do not
immediately modify the remaining open task orders. The Army will overpay
approximately $97,000 in fixed fees on USTC’s material and ODC contract line items.
See Appendix B for more information on overpayments.

SMDC CAMO Management Action
We notified the Director of Directorate A at SMDC CAMO about Raytheon’s excess
fixed fees on February 7, 2011. On February 14, 2011, the Director of Directorate A
stated that corrective action had been initiated. She also stated that she directed Raytheon
to conduct an internal audit of all invoices submitted to the Defense Finance and
Accounting Service before October 1, 2010; requested an assist audit from Defense
Contract Management Agency; and notified CNTPO CORs and SMDC CAMO staff of
the improper billing.

(FOUO) Despite our notifying the Director of Directorate A about Raytheon’s excess
fees, we identified five task order modifications that were issued with incorrect fees after
February 7, 2011, when SMDC CAMO was notified. For example, task order 0021,
modification 10, was signed April 12, 2011, and increased the estimated cost of ODC by
         and the respective fee by        . The resulting fee percentage change was



                              FOR OFFICIAL USE ONLY
                                        8
(FOUO)        percent. As a result, contracting officers are continuing to issue task order
modifications with excess fees while under the supervision of the Director of
Directorate A.

(FOUO) In addition, we identified three invoices that were paid with incorrect fees after
February 14, 2011, when SMDC CAMO notified us that Raytheon was aware of the
issue. For example, on March 9, 2011, Raytheon submitted an invoice (BVN0014) for
task order 21. On that invoice, Raytheon applied a         -percent fee to material contract
line item number 3009 and a -percent fee to ODC contract line item number 3011. The
total excess fee resulting from the incorrect fee rates that Raytheon applied was more
than           The invoice was paid on March 24, 2011. As a result, invoices are still
being approved even though the Director of Directorate A stated that CNTPO CORs and
SMDC CAMO staff were aware of the improper billing. SMDC CAMO should recoup
the excess fees that have already been paid on the contracts to Raytheon and USTC.

Conclusion
The Director of SMDC CAMO and Director of Directorate A did not verify that
contracting officers accurately prepared task orders. SMDC CAMO contracting officers
included boilerplate language in the IDIQ base contracts and in the task orders and did
not verify that fixed fees applied to the material and ODC contract line items were
correctly calculated. By preparing task orders that were not in accordance with the base
IDIQ contracts, Raytheon charged the Army approximately $815,000 in excess fees and
USTC charged the Army approximately $77,000 in excess fees. The contracting officers
should take action to recoup these excess fees from the contractor. Additionally, the
contracting officers could save the Army approximately $466,000 ($446,000 for
Raytheon, $20,000 for USTC) by modifying the contract language in all open task orders.
If corrective actions are taken, the Army could receive approximately $1.36 million in
potential monetary benefits.

Management Comments on the Finding and Our
Response
Director, SMDC CAMO, Comments on the Overall Finding
The Director, SMDC CAMO, stated that the broad references to DoD IG Report
No. D-2009-109 are inappropriate. She stated that the prior report found that SMDC
CAMO did not have adequate internal controls for managing and administering contracts.
Specifically, the report identified problems with the training of personnel assigned, type
of task orders employed, contract files maintenance, contract administration, and quality
assurance. Additionally, the Director stated that she agreed with the findings in the 2009
report and instituted a corrective action plan in coordination with CNTPO. Therefore, the
Director concluded that this report identified no repeat findings.

The Director also stated that the findings from the PMR conducted by the DASA(P) in
December 2009 are not relevant and do not identify repeat findings. She stated that none
of the findings in the PMR report identified fault with the CNTPO contract or CNTPO
                              FOR OFFICIAL USE ONLY
                                        9
task orders. The Director stated that the problems that were identified in the PMR as
being high risk were within the continuity of operations plan, contract execution, and
government purchase card sections of the PMR and therefore are not relevant to this
report. The Director further stated that the PMR identified that the risk ratings could be
mitigated by standardizing operating procedures, issuing policy, and conducting training.
SMDC CAMO agreed and addressed each of these areas in a corrective action plan that
was accepted by the DASA(P). For the Director’s complete analysis and comments on
the overall finding, see pages one through five of the Director’s comments in the
Management Comments section of this report.

Our Response
Although we agree with the Director that the problems identified in this report are not
exactly the same as the problems identified in the 2009 DoD IG report and the 2009
DASA(P) PMR, both of those reviews identified problems with contract management.
We clarified the wording in this section of the report to state that these are additional
findings instead of repeat findings. In this report, we identified problems with contract
oversight. Furthermore, the corrective actions that were taken to fix the previously
identified problems, such as training and increased personnel, should have allowed the
contracting officers to identify and correct the excess fixed fees that were awarded on
task orders identified in this report.

Director, SMDC CAMO, Comments on the Referenced ASBCA
Case
The Director disagreed with the application of the ASBCA case in Finding A to the
Raytheon contract. The Director stated that in that case, the ASBCA held, “[a]s the cost
proposal was incorporated into the contract (finding 1), appellant is contractually bound
by its terms, which include the composition of its overhead pools.” However, in contrast
to the cited ASBCA case, the Director stated that Raytheon’s final proposal revision rates
on materials and other direct costs were not incorporated into the IDIQ contract;
therefore, the contractor is allowed to propose a fee ranging from 0 to 5 percent.

Our Response
The ASBCA case is relevant to the treatment of the Raytheon contract. Although the
Government did not write the IDIQ contract and task orders to include the proposed fee
rates, the intent was that the contractors charge the fee rates that they proposed as
evidenced by the fact that the other contractors only charged the fee rates that they
proposed. In addition, the source selection panel included cost/price as a factor in
awarding Raytheon the contract. See our response to the Director, SMDC CAMO,
comments regarding Raytheon fees for Recommendation A.2.a.

Director, SMDC CAMO, Comments on the Task Order Evaluation
Process
The Director stated that as noted in the draft report, task order proposals are
collaboratively reviewed by the COR, COTR, and contracting officer or specialist. She
stated that these individuals follow a task order evaluation guide while reviewing

                                            10
proposals that requires that any findings or disconnects be documented. She stated that
the evaluation includes a review of the rates proposed, as compared to the terms of the
contract. She further stated that the evaluation guide specifically states, “discuss whether
the labor categories proposed match Attachment 6” and “perform a random sampling of
labor rates – do they match Attachment 6?”

Our Response
The task order evaluation guide further supports our finding that fees on material and
ODCs are not being reviewed or validated. We agree with the Director that the task order
evaluation guide states that there will be a review of labor rates. However, there is no
evaluation of material or ODC fee rates in the guide. Under each material and ODC
section in the guide is a list of several questions for the reviewer to evaluate; however,
none of them are specific to fee rates.

Director, SMDC CAMO, Comments on the Role of DCAA
The Director stated that at the time the task orders were awarded, the prime contractors
were under a direct billing authorization—this means that provisional payments were
authorized and subject to an audit and the results of that DCAA audit were provided to
the contracting officer. The Director stated that the discussion in this report confuses the
point that post-award requests for reimbursement included a comparison with the terms
of the task order. She also stated that DCAA is correct that its review did not include a
review of the solicitation information that was incorporated into the IDIQ contract and
task orders. She further stated that DCAA’s review assessed payment requests against
the terms of the task order.

Our Response
The intent of our discussion was to show that if the IDIQ contract and task order are not
written to include the correct fees on material and ODCs, then DCAA cannot be expected
to identify excess fees. Therefore, DCAA should not be relied on to identify excess fixed
fees because DCAA does not normally review fixed fees.

Director, SMDC CAMO, Comments on Continuing to Award Task
Orders
(FOUO) The Director stated that the discussion in the draft report regarding SMDC
CAMO continuing to award and administer task orders after being notified of the excess
fee problem is “inappropriately inferred.” She stated that while a contract is in dispute,
the Government cannot enforce, nor is the contractor required to accept, terms that are
contrary to those set forth in the contract. Additionally, she stated that the specific
invoices we use as examples apply to those specific invoices and do not demonstrate the
fact that the cumulative value for those contract line items is not higher than percent.

Our Response
(FOUO) Fee overages continued despite SMDC CAMO being aware of the problem. We
revised Recommendation A.2.d to clarify that all future task orders should include the
correct fee rate language. In addition, the specific invoices we used as examples in
                              FOR OFFICIAL USE ONLY
                                             11
(FOUO) Finding A show that SMDC CAMO contracting officers continued to approve
erroneous invoices and that even though the overall material and ODC contract line items
averaged a fee of percent, that fee was still higher than the percent Raytheon
proposed.

Director, SMDC CAMO, Comments on Raytheon’s Self-Audit
The Director stated that when SMDC CAMO was notified by the audit team about the
potential overpayment of fees, the Director of Directorate A tasked Raytheon to conduct
a self-audit of fees paid on material, ODCs, and travel. She stated that Raytheon’s self-
audit identified an additional $6,000 of excess fees paid on travel that were not identified
by the audit team. She expects Raytheon to issue a credit for those overpayments on
travel fees by September 30, 2011.

Our Response
The contracting officer is responsible for identifying problems with incorrect fees before
awarding task orders. The contracting officer should not rely on contractors or other
agencies’ audits to ensure that fees are accurate and applied correctly during contract
administration.

Revised Recommendations
As a result of comments from the Director, SMDC CAMO, we revised
Recommendations A.2.a and A.2.d.

Recommendations, Management Comments, and Our
Response
A.1. We recommend that the Deputy Assistant Secretary of the Army for
Procurement conduct a review of the performance of the contracting officers at the
U.S. Army Space and Missile Defense Command, Contracting and Acquisition
Management Office, who oversaw the management of the DoD Counter
Narcoterrorism Technology Program Office indefinite-delivery, indefinite-quantity
contracts for allowing excess fees and initiate administrative action if appropriate.

Director, SMDC CAMO, Comments
The DASA (P) agreed. The Deputy Assistant Secretary included Army Contracting
Center-Redstone in its schedule for FY 2012 PMRs. The Deputy Assistant Secretary
stated that the PMR team will include the subject areas of this report as part of its review.

Our Response
The Deputy Assistant Secretary’s comments are responsive, and no further comments are
required.




                              FOR OFFICIAL USE ONLY
                                        12
A.2. We recommend that the Director of U.S. Army Space and Missile Defense
Command, Contracting and Acquisition Management Office:

       a. Meet with the contractors that received excess fees to reach agreement on
the return of $77,014 in excess fixed fees by the U.S. Training Center, $815,440 in
excess fixed fees by Raytheon, and any additional excess fees that were paid after we
notified the Director of Contract Operations Directorate A about the excess fixed
fees.

Director, SMDC CAMO, Comments Regarding USTC Fees
(FOUO) The Director, SMDC CAMO, agreed to recover funds from USTC. The
Director stated that USTC presented a fee rate of      percent in its proposal in the written
narrative and spreadsheet column heading. She stated that a visual inspection of the
value indicated that the value proposed was reflective of the intended       percent that was
proposed. However, she stated that when the amounts in the proposal were actually
calculated, the value derived indicated a fee rate of        percent. For example, she
stated that on task order 0012, the estimated cost was                  with a fee of
             awarded. The Director stated that a fee rate of          percent was calculated,
as opposed to the     -percent intended value, resulting in an overpaid fee of

The Director stated that when the audit team notified SMDC CAMO of the error, USTC
was immediately notified and agreed with the error, stating that it was a miscalculation.
She stated that SMDC CAMO is working with USTC and the Defense Finance and
Accounting Service to recover any excess fees identified on all open and closed task
orders. The Director stated that USTC has since made changes to its internal review
process to prevent future incidents of this nature and that she anticipates that all credits
will be recovered no later than September 30, 2011.

The Director stated that although SMDC CAMO agreed with the recommendation, the
significance of the mathematical error was overstated in the draft report. She stated that
it is not possible to verify every calculation in every proposal, to do so would require an
increase in personnel for every contracting organization within the DoD.

Our Response
The Director of SMDC CAMO’s comments regarding the refund of USTC excess fees
are responsive, and no further comments are required. SMDC CAMO took immediate
action to notify USTC of the error when it was identified. However, as stated in
Finding A, SMDC CAMO needs to stop relying on the contractor to ensure that rates are
correct. This is a problem that is recurring on multiple task orders for multiple
contractors, and not performing these calculations has resulted in overpayments of fees to
USTC totaling approximately $77,000. In this era of shrinking budgets and increased
emphasis on economies and efficiencies, DoD needs to exercise proper stewardship over
taxpayer money.



                              FOR OFFICIAL USE ONLY
                                        13
Director, SMDC CAMO, Comments Regarding Raytheon Fees
The Director, SMDC CAMO, partially agreed with our finding that Raytheon charged
excess fees on material and ODCs. The Director agreed that there is a misunderstanding
as to the terms of the solicitation and resultant contract regarding the allowable fee rate
for material and ODC contract line items. She also agreed that there is ambiguity in the
terms of the solicitation and contract that led to the contracting officer’s failure to accept
the fee rate offered in Raytheon’s final proposal.

However, the Director disagreed that the fees awarded to date and paid to Raytheon are
recoverable. She stated that the audit team’s interpretation that material and ODC fee
rates proposed by the prime contractors are or should have been incorporated into the
awarded contracts is only one interpretation. The Director stated that SMDC personnel
have a different interpretation based on the terms of the contract inherited by successor
contracting officers. The Director stated that contracting officers cannot be expected to
ensure the terms of the contract that they inherit are consistent with the pre-award
documentation. She stated that it is unrealistic to believe successor contracting officers
would have understood the intent of the contracting officer who awarded the basic
contracts and then enforce fee rates that were not included in the contracts they were
provided for administration.

(FOUO)




(FOUO)




                               FOR OFFICIAL USE ONLY
                                         14
(FOUO)




The Director stated that after additional reviews of this issue in conjunction with legal
counsel, it is clear that the final proposed fee rates for materials and ODCs were not
accepted by the Government and were not incorporated into the IDIQ contract. She
concluded that, for purposes of task order pricing, the allowable fees on material and
ODCs fall within a range of 0 to 5 percent as proposed by Raytheon.

The Director stated that Raytheon’s response to SMDC CAMO’s letter further
substantiates the Government’s intent to allow awardees the ability to propose a fee of 0
to 5 percent on material and ODCs. The Director stated that Raytheon’s argument is
supported by relevant case law and referenced DoD IG Report No. D-2011-073, “Audit
of the Afghanistan National Army Equipment Maintenance Apprenticeship and Services
Program Contract,” June 14, 2011. The report’s background states that the contractor’s
request for equitable adjustment was denied. The contractor’s initial proposal included a
clause allowing the contractor to receive an equitable adjustment if parts exceeded
$15 million per year. The request for equitable adjustment was denied because the
contractor’s initial proposal was not incorporated into the final contract. The Director
concluded that this same principle applies to Raytheon’s fees for material and ODCs.
She stated that the terms of the contract allowed for 0 to 5 percent on material and ODC
fees because Raytheon’s proposed fee rates were not incorporated into the base IDIQ
contract.

The Director stated that the approach of allowing the contractor to propose a fee rate
within a range permits contractors to propose a fee based upon the risk level of the
requirement presented in each task order. For example, task orders involving less risk
could allow for lower fee rates, while higher risk work could warrant a higher fee rate.

The Director stated that the solicitation proposed that all rates applicable to material and
ODCs would be incorporated into the IDIQ contract as Attachment 6: B0 Rates for
Contract; however, the worksheet provided to contractors to complete for add-ons for
material and ODCs did not include fee rates. The Director stated that the term “add-ons”
related to material and ODCs, but the contract did not state specifically that these were
fees. Add-ons are typically those indirect rates based on the contractor’s cost accounting
systems and disclosure statements. Section B of the awarded contracts formed the basis
for pricing task orders, but Raytheon’s proposed fee rates on material and ODCs were not
included. The Director stated that the solicitation did not specify that it was the
Government’s intent to incorporate fixed-fee rates on material or ODCs, despite the
information presented in Section IX of the cost proposal preparation instructions.



                              FOR OFFICIAL USE ONLY
                                        15
The Director explained that the initial solicitation issued by the Government contained
material and ODC contract line items, but it did not allow for fees on either one.
However, she stated that in response to industry questions, the Government changed its
stance and allowed a range of fee rates from 0 to 5 percent on material and ODCs
beginning with Amendment 0004 to the solicitation. The Director quoted parts of
section B of the solicitation that discussed pre-negotiated labor and ODC indirect rates,
which includes fixed-priced level-of-effort, fixed-price labor with cost-plus-fixed-fee
ODCs, and cost-plus-fixed-fee labor with cost and/or cost-plus-fixed-fee ODC task
orders (see the Director’s comments in the Management Comments section of this
report).

(FOUO) The Director stated that Raytheon proposed a -percent fee on materials on task
order 0003 (Task Order Requirements Package 0010) and a percent fee on materials on
task order 0011 (Task Order Requirements Package 0078). She also stated that this
shows Raytheon’s compliance with the terms of the contract.

The Director stated FAR clause 52.215-1 supports SMDC CAMO’s stance that the
written award conveyed by the Government and accepted by Raytheon identified the
intent of both parties to allow a fee range of 0 to 5 percent on material and ODCs. She
stated that the audit team’s interpretation of the clause in Finding A is incorrect.

Our Response
The Directors comments are partially responsive. The selection of contractors was based
in part on cost, and the Government’s intent was to use the rates that the contractors
initially proposed. All the contractors, except Raytheon, abided by the intent of the IDIQ
contract. In fact, USTC charged excess fees and has agreed to refund the amounts
overcharged. The Director of Contract Operations Directorate A, SMDC CAMO, stated
that the IDIQ contracts and task orders should have included the specific fee rates
proposed by each contractor.

The contracting officers did not enforce that rate when issuing the task orders.
Additionally, the contracting officers did not update the language of the IDIQ contracts or
task orders, leaving the same boilerplate language that was in the solicitation, which
allowed Raytheon to propose a fee within a range. The contracting officers also did not
verify that the fees proposed by contractors on material and ODCs were accurate before
awarding the task orders. The Director stated that is it not practical to verify every
calculation based on the overpayment of USTC fixed fees. However, SMDC CAMO
overpaid approximately $1.36 million in fixed fees, which could have been used to
support the warfighter.

If the contracting officers had performed these tasks, the Government and Raytheon
would have been clear on the terms of the contract from the beginning. Even though
there was ambiguity in Raytheon’s contract regarding the allowable fee rate for material
and ODC contract line items, four of the five contractors complied with their proposed


                             FOR OFFICIAL USE ONLY
                                       16
fee rates. This shows that the Government’s intent—that the contracting officer would
incorporate the contractors’ proposed fees into the IDIQ contracts and task orders—had
been communicated.

The Director, SMDC CAMO, should meet with Raytheon and come to an agreement on
the fee rate for material and ODC contract line items and the potential repayment of
$815,440 in excess fixed fees. Raytheon should be made aware that by taking advantage
of ambiguities in contract terms, they have not fulfilled the intent of their proposed
pricing arrangement and are not attempting to conserve spending to better support the
warfighter. The Director, SMDC CAMO, should seek a resolution that is in the best
interest of the Government. Additionally, regardless of the stance that the Director,
SMDC CAMO, takes on this issue, the Director can still request a voluntary refund as
defined in Defense Federal Acquisition Regulation Supplement (DFARS) 242.7100,
“Voluntary Refunds.” Specifically, DFARS Procedures, Guidance, and
Information 242.710 states that a voluntary refund may be solicited after determining that
no contractual remedy is readily available to recover the amount sought and that
voluntary refunds can be requested when the contracting officer concludes that the
contractor overcharged the Government. We request that the Director, SMDC CAMO,
conduct a meeting with Raytheon by December 1, 2011 and provide us comments on the
results within 2 weeks of holding the meeting.

       b. Institute an internal control plan that ensures that contracting officers are
verifying the accuracy of all fees before awarding future task orders.

Director, SMDC CAMO, Comments
The Director, SMDC CAMO, agreed. She stated that the Director, Directorate A, issued
a memorandum during the course of this audit requiring contracting officers to verify
calculations and rates within proposals to identify any mistakes or errors. The Director
also stated that this topic was covered during information training sessions in May 2011.

Our Response
The Director’s comments are partially responsive. Although the memorandum, attached
worksheet, and training sessions are helpful to ensure that contracting officers perform
their duties and verify the accuracy of fees, they do not constitute an internal control plan.
SMDC CAMO management needs to continue to take a proactive approach to ensure that
contracting officers are verifying the accuracy of task orders before award. We request
that the Director develop an internal control plan and provide a copy to us by
December 1, 2011.

       c. Require that contracting officers update the standard language used in the
indefinite-delivery, indefinite-quantity contracts and all open task orders for each
prime contractor to reflect the contractually agreed-to fixed fees for materials and
other direct costs.




                                             17
Director, SMDC CAMO, Comments
The Director, SMDC CAMO, partially agreed. The Director stated that basic IDIQ
contracts for each contractor are being modified to update terms and conditions,
including incorporating the fee rates, and completion is expected no later than
September 30, 2011. She also stated that updating Raytheon’s contract is predicated
upon the successful negotiation of the fee rates on materials and ODCs, which is not yet
final.

The Director stated that modifying existing task orders would be difficult and there were
no findings in this report to require this recommendation. She stated that regardless of
the terms of a contract, errors will occur; therefore, a more aggressive scrutiny of
invoices and documentation is a more prudent and practicable approach than modifying
each open task order. She also stated that this effort is further discussed in her response
to Recommendation B.2.

Our Response
The Director’s comments are partially responsive. However, no further comments are
required because the Director’s corrective actions proposed in Recommendations A.2.b
and actions taken in Recommendation B.2 are being implemented to ensure that all open
and future task orders contain accurate fee information. Raytheon should not be treated
differently than the other contractors and needs to have its IDIQ contract modified.
Additionally, the discussions throughout Finding A and specifically, the table in
Appendix B, show that we have identified specific open task orders that have incorrect
fees.

        d. Require that contracting officers include standardized language that
reflects the amount of fixed fees for materials and other direct costs in all future
task orders and modifications as of October 1, 2011.

Director, SMDC CAMO, Comments
The Director, SMDC CAMO, disagreed with the draft report recommendation regarding
stopping the issuance of any task orders or modifications until Recommendation A.2.c
was completed. The Director stated that other than a concern with Raytheon’s fees, for
which a remedy is already being discussed, there were no findings warranting a complete
halt of all contract actions that are directly supporting the warfighter. Additionally, she
stated that a failure to modify task orders as necessary would be a breach of contract on
the Government’s part, resulting in potential litigation liability and impact on the
organizations and units supporting the task orders.

Our Response
Based on the Director’s comments and the action taken for Recommendation A.2.c, we
revised the recommendation. We request that the Director, SMDC CAMO, provide
additional comments on the revised recommendation by December 1, 2011.




                                            18
Finding B. Contractors Billed the Army
Incorrectly
The Army was incorrectly charged for ODCs under two CNTPO task orders because
Northrop Grumman billed for non-CNTPO work under one CNTPO task order and
double billed on another. The Deputy Director, CAMO stated that this occurred because,
at the time, Northrop Grumman was authorized to submit requests for provisional
payment directly to the Defense Finance and Accounting Service. However, both of the
billing errors occurred because CORs did not conduct in-depth reviews of the invoices.
As a result, Northrop Grumman overbilled the Army $168,279. Northrop Grumman
agreed that they incorrectly billed the Army and should issue refunds to the Army for the
incorrect billings.

Charge for Non-CNTPO Work
(FOUO) Northrop Grumman charged the Army for ODCs under the CNTPO task order
W9113M-07-D-0007-0020 for               of non-CNTPO work. Northrop Grumman billed
                     2
the Army for squibs that were in support of a Lockheed Martin contract because
Northrop Grumman was authorized to submit requests for provisional payment directly
without a detailed invoice review. Northrop Grumman submitted task order 0020, invoice
BVN0007, to the Army for payment. We identified that the subcontractor invoice to
support Northrop Grumman invoice BVN0007 contained a Lockheed Martin contract
number. On February 2, 2011, we contacted Northrop Grumman for clarification. On
March 14, 2011, a Northrop Grumman official acknowledged that the charges for the
squibs were for a Lockheed Martin contract and were incorrectly charged under the
CNTPO contract. The Northrop Grumman official stated that Northrop Grumman would
refund the Army for the squibs and the program management office fee and profit fee
added to the charges on invoice BVN0007. On June 29, 2011, Northrop Grumman
refunded           to the Army.

Double Billing
(FOUO) Northrop Grumman double billed the Army for                 of ODCs under CNTPO
task order W9113M-07-D-0007-0021. Northrop Grumman submitted task order 0021,
invoices BVN0022 and BVN9024, to the Army for payment for insurance charges. We
identified that the subcontractor invoices to support the Northrop Grumman invoices
contained duplicate charges for insurance that covered the same period of time. On
April 15, 2011, we asked Northrop Grumman for clarification. On May 5, 2011, a
Northrop Grumman official acknowledged that invoices BVN0022 and BVN9024 were
the same. The Northrop Grumman official stated that Northrop Grumman would issue a
refund for the double billing and program management office fee and profit fee added to
the charges on invoice BVN9024. On June 9, 2011, Northrop Grumman refunded
         to the Army.



2
    A squib is an explosive charge of high-temperature powder.
                                    FOR OFFICIAL USE ONLY
                                              19
Although the Deputy Director, CAMO, stated that these invoices were submitted while
Northrop Grumman was authorized to submit requests for provisional payment directly to
the Defense Finance and Accounting Service, task order 0021, invoices BVN0022 and
BVN9024, were submitted after Northrop Grumman’s direct submission authority was
rescinded. The COR signed Standard Form 1034, “Public Voucher for Purchases and
Services Other Than Personal,” that certified that task order 0021, invoices BVN0022
and BVN9024, were correct and proper for payment. The double billing for insurance
charges on task order 0021, invoices BNV0022 and BVN9024, occurred because for
ODCs, the COR only checked that the invoice matched the proposal. The CORs did not
obtain receipts or review supporting documentation for vouchers. Specifically, the CORs
did not question the ODCs as long as there were funds on the contract to cover invoices.
Without a more in-depth invoice approval process, billing errors could continue to occur.

Conclusion
Northrop Grumman incorrectly billed the Army for $168,279 under the CNTPO contract.
A Northrop Grumman official acknowledged that incorrect billings occurred and agreed
to refund the amount incorrectly billed to include the program management fee and profit
applied. The Director of Directorate A should follow up with Northrop Grumman to
ensure that the incorrect billings are refunded to the Army. If corrective actions are
taken, the Army could receive $168,279 in potential monetary benefits.

Redirected Recommendation
Based on the comments from the Director, SMDC CAMO, we redirected
Recommendation B.2 to her office.

Recommendations, Management Comments, and Our
Response
B. We recommend that the Director of Contract Operations Directorate A, U.S.
Army Space and Missile Defense Command, Contracting and Acquisition
Management Office:

       1. Ensure that Northrop Grumman refunds the Army the $168,279 that was
incorrectly billed.

Director, SMDC CAMO, Comments
The Director, SMDC CAMO, responding on behalf of the Director, Directorate A,
agreed. The Director stated that it is her understanding that the DoD IG audit team
worked directly with Northrop Grumman regarding credits owed to the Government. She
stated that SMDC CAMO received information from Northrop Grumman demonstrating
that credits have been issued.

Our Response
We worked directly with Northrop Grumman personnel to identify the errors and the total
amounts that were incorrectly billed. Northrop Grumman provided us documentation

                                           20
showing that credits were issued and the Director, SMDC CAMO, agreed that the credits
were issued. The Director’s comments are responsive, and no further comments are
required.

       2. Coordinate with the Program Director of the Counter Narcoterrorism
Technology Program Office to determine whether a more detailed invoice approval
process is necessary.

Director, SMDC CAMO, Comments
The Director, SMDC CAMO, responding on behalf of the Director, Directorate A, and
the Program Director, CNTPO, agreed. The Director and Program Director coordinated
comments in response to this recommendation. They stated that CNTPO has initiated
efforts to enhance its invoice review process. Specifically, they stated that in June 2011,
CNTPO conducted an internal invoice review process analysis that indentified areas for
enhancement and the following improvement actions to:
    x Hire an experienced individual whose sole responsibility will be to review all
         invoices prior to being reviewed and approved by the COR and COTR. They
         stated that this individual started on August 1, 2011.
    x Develop a more detailed invoice review checklist. (A copy of the checklist was
         provided to the audit team.) They stated that the checklist will be treated as a
         “living” document to ensure that it is as comprehensive as necessary.
    x Refine the CNTPO invoice review process to include the newly hired invoice
         reviewer. (A copy of the proposed workflow was provided to the audit team.)

Additionally, they stated that SMDC CAMO will institute a random review of invoices
that are approved by the COR and COTR starting on October 1, 2011. (A copy of the
review checklist was provided to the audit team.)

Our Response
The Director and Program Director’s comments are responsive, and no further comments
are required.




                                            21
Appendix A. Scope and Methodology
We conducted this performance audit from October 2010 through July 2011 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We conducted interviews and gathered documentation covering the period from
August 2008, when the sample of task orders contained in DoD IG Report D-2009-109
ended, through April 2011. We downloaded all the CNTPO task orders and
modifications within that timeframe from the Electronic Document Access Web site. We
then downloaded all the invoices for those task orders that contained ODC contract line
items from the Wide Area Workflow Web site.

We visited CNTPO in Dahlgren, Virginia, and SMDC CAMO in Huntsville, Alabama, to
gather background information and contract files. We also met with contracting officers,
CORs, COTRs, and management at those locations. We met with DCAA and Defense
Contract Management Agency personnel to discuss their roles and responsibilities with
CNTPO contracts. We met with prime contractors and subcontractors who requested
entrance conferences and contacted others by phone and e-mail to gather documentation
to support the invoices.

While reviewing Raytheon task orders, we found that Raytheon was charging the Army
excess fixed fees on material and ODC contract line items. We reviewed all Raytheon
task orders with materials and ODCs to ensure that correct fixed fees were being applied.
We reviewed all task orders for all the prime contractors to determine whether the
overcharging of fixed fees was a systemic problem. We found that USTC was also
overcharging fixed fees for material and ODCs.

Use of Computer-Processed Data
We relied on computer-processed data from Electronic Document Access Web site.
Electronic Document Access is a web-based system that provides secure online access,
storage, and retrieval of contracts and contract modifications to authorized users
throughout the Department of Defense. We used documents retrieved from Electronic
Document Access to determine the approximate value of ODCs for task orders under the
CNTPO contract. We compared our analysis of the CNTPO task orders to data provided
by the contracting office to verify the ODC dollar value for CNTPO task orders. As a
result of our analysis, we are confident that data collected from the Electronic Document
Access Web site was sufficiently reliable for determining the approximate value of ODCs
for task orders under the CNTPO contract.

In addition, we relied on data from Wide Area Workflow Web site. Wide Area
Workflow is a web-based system for electronic invoicing, receipt, and acceptance. We

                                           22
used documents retrieved from Wide Area Workflow to determine the amount of fee paid
on material and ODC contract line items to the prime contractors. We compared our
analysis of fee paid on material and ODCs provided by Wide Area Workflow documents
to the disbursement amount from the Mechanization of Contract Administration Services
(MOCAS) Disbursement History report. As a result of our analysis, we are confident that
data collected from the Wide Area Workflow site was sufficiently reliable for
determining the amount of fee paid on material and ODCs.

We also relied on MOCAS Disbursement History reports. The MOCAS Disbursement
History shows the detailed obligation and disbursement transactions on the contract. We
used the MOCAS Disbursement History to determine the material and ODC contract line
items that have been paid by the Defense Finance and Accounting Service for each task
order. We verified that the information was accurate by matching the disbursement
amount from the MOCAS report to the total amount invoiced in Wide Area Workflow.
As a result of our analysis, we are confident that the data collected from the MOCAS
Disbursement History were sufficiently reliable for determining the material and ODC
contract line items paid for each task order.

Prior Coverage
During the last 5 years, the DoD IG has issued one report regarding CNTPO.
Unrestricted DoD IG reports can be accessed at http://www.dodig.mil/audit/reports.

DoD IG
DoD IG Report No. D-2009-109, “Contracts Supporting the DoD Counter
Narcoterrorism Technology Program Office,” September 25, 2009




                                          23
Appendix B. SMDC CAMO Overpaid Fee
Amounts
                   Table B-1. Overpaid Fees to Raytheon
Task Order   Overpaid Excess      Open and Closed         Potential Additional
                   Fees           Task Order Status           Excess Fees
   0002       $ 12,328.18              Closed              $        0.00
   0003          2,941.25              Closed                       0.00
   0005          3,290.13              Closed                       0.00
   0006          1,864.70              Closed                       0.00
   0008         13,904.28              Closed                       0.00
   0009          4,218.86              Closed                       0.00
   0010         23,579.98              Closed                       0.00
   0012         88,578.49               Open                  36,416.84
   0013        106,963.26               Open                 328,709.82
   0014        287,401.58              Closed                       0.00
   0015         80,110.23              Closed                       0.00
   0016        120,556.05              Closed                       0.00
   0019         24,957.87               Open                  23,278.93
   0021         44,745.09               Open                  57,467.31
   Total      $815,439.95                                   $445,872.90

                    Table B-2. Overpaid Fees to USTC
Task Order   Overpaid Excess      Open and Closed         Potential Additional
                  Fees            Task Order Status           Excess Fees
   0005       $ 302.87                 Closed                $      0.00
   0010         1,123.63               Closed                       0.00
   0011         6,121.81               Closed                       0.00
   0012         1,597.77               Closed                       0.00
   0013         2,996.96               Closed                       0.00
   0015           505.70               Closed                       0.00
   0016        13,527.53               Closed                       0.00
   0017        45,280.90                Open                   9,640.61
   0018           742.61               Closed                       0.00
   0020         4,777.13                Open                   9,585.13
   0022            37.10                Open                      784.42
   Total      $77,014.00                                     $20,010.16

                                   24
Appendix C. Summary of Potential Monetary
Benefits
Recommendations           Type of Benefit         Amount of Benefit
A.2.a             Questioned costs. Recoup and      $1,358,000
                  prevent excess fees paid to
                  contractor.
B.1               Disallowed cost. Recover              168,279
                  money for Non-CNTPO work
                  and double billing charged by
                  contractor.
                   Total                             $1,526,279




                                   25
Deputy Assistant Secretary of the Army for Procurement
Comments




                                    DEPARTMENT OF THE ARMY
                              OFFICE OF THE ASSISTANT SECRETARY OF THE ARMY
                                  ACQUISITION LOGISTICS AND TECHNOLOGY
                                            103 ARMY PENTAGON
                                         WASHINGTON DC 20310-0103

                                                                                 AUG 17 2011
      SAAL-PK


      MEMORANDUM FOR THE INSPECTOR GENERAL, DEPARTMENT OF DEFENSE,
      400 ARMY NAVY DRIVE, ARLINGTON, VIRGINIA 22202

      SUBJECT: Department of Defense Inspector General (DoD IG) Draft Report Dated July
      15, 2011 , Counter Narcoterrorism Technology Program Office Task Orders Had Excess
      Fees, and the Army Was Incorrectly Billed (Project No. D2011-DOOOAS-0004.000)


      1. The subject report makes one recommendation to the Deputy Assistant Secretary of
      the Army (Procurement) (DASA(P)). Specifically, the DoD IG recommends that
      DASA(P) conduct a review of the performance of the contracting officers at the U.S.
      Army Space and Missile Defense Command, Contracting and Acquisition Management
      Office, who oversaw the management of the DoD Counter Narcoterrorism Technology
      Program Office indefinite-delivery, indefinite-quantity contracts for allowing excess fees
      and initiate administrative action if appropriate.

      2. The DASA(P) concurs with the recommendation and provides the enclosed
      comment.

      3. Point of contact for this memorandum is • • • • • • • • • • • • • • • •




      Enclosure
                                            r1~2~
                                                ;eputy Assistant Secretary
                                                of the Army (Procurement)




                                                                26
                                  ENCLOSURE
Draft Audit Recommendation A 1:

We recommend that the DASA(P) conduct a review of the performance of the
contracting officers at the U.S. Army Space and Missile Defense Command,
Contracting and Acquisition Management Office, who oversaw the management of
the DoD Counter Narcoterrorism Technology Program Office indefinite-delivery,
indefinite-quantity contracts for allowing excess fees and initiate administrative
action if appropriate.


DASA(P) Response:

The DASA(P) included Army Contracting Center-Redstone (ACC-RSA) in its
schedule for FY12 Procurement Management Reviews (PMRs). ACC-RSA
provides senior contracting management for U.S. Army Space and Missile Defense
Command, Contracting and Acquisition Management Office operations. During the
conduct of the scheduled PMR, the DASA(P) team will specifically include the
subject areas of this report as part of their review.




                                                       27
U.S. Space and Missile Defense Command, Contracting
and Acquisition Management Office Comments




                                      DEPARTMENT OF THE ARMY
                                 U.S. ARMY SPACE AND MISSILE DEFENSE COMMAND/
                                        ARMY FORCES STRATEGIC COMMAND




  •
                                              POST OFFICE BOX 1500
                                         HUNTSVILLE, ALABAMA 35807-3801
                ~(£PLY   TO
                t.T'TENltON OF



      SMDC-RDC-A                                                                         15 August 201 1


      MEMORANDUM FOR Inspector General, Department of Defense, 400 Army Navy Drive,
      Arlington, VA 22202-4704

      SUBJECT: Agency Response to Draft Report Project No. D20 11 -DOOOAS-0004.000, CNTPO
      Task Orders Have Excess Fees, and the Army was Incorrectly Billed


      1. Thank you for the opportunity to review the above-subject draft report. Request that you
      consider this response and infomtation below concerning Finding A and Finding B when
      finalizing your report.

         a. Finding A.

             (I) Recommendation A.2.a. Prior to addressing the specific findings, overarching
      statements presented in the draft report must be addressed.

              (a) Failure to Implement Internal Controls or Reviews: The draft report indicates that
      the finding.s presented in this report are repeat findings of those presented in DoD IG Report
      D-2009-10-9, September 2009. In that report, the DoD IG found that USASMDC/ARSTRAT
      CAMO did not have adequate internal controls for managing and administering the CNTPO
      IDIQ contracts. The findings were centered into four major areas of concern: training of
      personnel assigned; type of task orders employed; contract files maintenance; contract
      administration; and, quality assurance. To address the findings and recommendations,
      USASMDC/ARSTRAT CAMO and CNTPO instituted a corrective action plan. To date, all
      corrective actions have been implemented. Moreover, this draft report ide11tified 110 repeat
      findings of those set forth in DoD IG Report D-2009-1 09, September 2009. As such,
      USASMDC/ARSTRAT CAMO believes tllat tile broad references to tile 2009 report are
      i11appropri'ate. To highlight our concerns, the following is provided:

              '(i) The DoD IG Report D-2009-109, September 2009, identified internal control
      weaknesses for USASMDC/ARSTRAT CAMO. Per the Report, SMDC CAMO did not have
      adequate internal controls for managing and administering CNTPO IDIQ contracts. Specifically,
      SMDC contracting officials did not properly complete training requirements; maintain complete
      contract files; use firm-fixed-price, level-of-effort, or cost contracts; develop quality assurance
      surveillance plans; or designate trained contracting officer's representatives for task orders. In
      addition, CNTPO officials did not conduct proper contract surveillance or properly fund task
      orders.




                                                                     28
SMDC-RDC-A
SUBJECT: Agency Response to Discussion Draft Report 02011-DOOOAS-0004.000, CNTPO
Task Orders Have Excess Fees, and the Army was Incorrectly Billed

        (ii) USASMDC/ARSTRAT CAMO agreed with fmdings and instituted a correcti.ve
action plan in concert with CNTPO. In the corrective action plan, USASMDC/ARSTRAT
CAMO and CNTPO made substalltial organizational and procedural cha11ges as follows:

      •   Staffing: At the time of the audit USASMDC/ARSTRAT CAJv10 had only two
          personnel assigned to support this contract. The audit occurred during the fourth
          quarter, where focus of the limited resources was on the award of requirements and
          obligation of expiring funding. Moreover, given the workload and limited staffing,
          auditors were advised that the contract files were not fully compiled, with some
          information in hard copy form in the files and other information in electronic format.

          Since the audit, US AS MDC/ARSTRAT CAMO has increased its staff from two
          persormel at the time of the audit to nine personnel. Similarly, CNTPO has increased
          manning by 22 personnel. To augment these personnel, contractor personnel are also
          used to execute support functions which include files management, documentation
          control and subject matter expert quality assurance assistance.

      •   Training: SMDC and CNTPO have conducted training, to include training
          specifically tailored to address the type and complexity of requirements executed
          under this contract, and has identified additional training requirements to bolster the
          proficiency level of personnel administering this contract.

      •   Processes:
                       •   A structured approach to task order management has been
                           implemented, with defined roles and responsibilities throughout the
                           process, from task concept to task completion.
                       •   A robust, multi-tiered approach to quality assurance has been
                           implemented, to include the implementation of a task order
                           surveillance plan for each task order. This approach delegates
                           authority to Contracting Officer Representatives at the contract level,
                           and Contracting Officer's Technical Representatives and Subject
                           Matter Experts at the task order level. This approach also included the
                           establishment of a prepositioned quality assurance cell in Afghanistan.
                       •   Contract administration delegations provided to the DCMA Corporate
                           Administrative Contracting Officers (CACO) have been updated to
                           include a request for the CACO to subdelegate tasks/responsibilities as
                           the CACO determines necessary based upon the place of performance
                           and nature of the requirement.
                       •   The invoice process was changed from the typical provisional payment
                           process authorized by DCMA and OFAS, to a mandatory I 00%
                           review of all invoices and supporting documentation prior to approval.



                                                2




                                                             29
SMDC-RDC-A
SUBJECT: Agency Response to Discussion Draft Report D20 11-DOOOAS-0004.000, CNTPO
Task Orders Have Excess Fees, and the Army was Incorrectly Billed

                       •  Contract tiles include a standardized contract file check! list, tailored to
                         the requirements of this program.
                       • Peer reviews have been initiated and include reviews for all actions
                         executed. The reviews consider the soundness and executability of the
                         proposed task order acquisition strategy and task order administration
                         approaches, as well as compliance with all statutes, reguEations and
                         policies. A fmding of the initial audit included the failure to obtain
                         approval for the contract type selected for the task order. Although the
                         contract types utilized were authorized by blanket determinations and
                         fmding and the acquisition strategy at the contract level, each task
                         order now includes a D&F when other than a fum, fixed price
                         arrangement is utilized. Additionally, the task order strategies employ
                         fim1, fixed price arrangements to the greatest extent practicable. The
                         peer review also reviews the task order file to ensure all required
                         signatures are presented in the file documentation, and all theater
                         business clearances are obtained prior to task order award.
                       • A Government Property Management System was deployed by
                         CNTPO and tracks all government-furnished property and contractor
                         acquired property on each task order. This system augments property
                         administration support provided by DCMA. A Govemment Property
                         Administrator (GS-1 102- 13) has been hired by
                         USASMDC/ARSTRAT CAMO, with responsibility of all property
                         oversight, to include identification of property in requirements
                         statements and changes in property requirements throughout the life of
                         the task orders.

        (b) The draft report also infers that findings of a Program Management Review (PMR)
conducted in December of2009 by the Deputy Assistant Secretary ofthe Army (Procurement),
or DASA(P) are relevant and that the fmdings identified in the draft report are repetitive of the
findings presented in the DASA(P) PMR report. USASMDC/ARSTRAT CAMO believes that
references to DASA(P) 2009 PMR report are inappropriate and are not relevant to the findings
identified in the 2011 draft report. Moreover, it is important to note that none o{l/re findings in
the PMR report identified fault witlt tlte CNTPO colllracl or CNTPO task order.
In the report, the PMR team indicated that the overall risk of contracting operations was high
because of high risk ratings in contract execution, continuity of operations plan and the
government purchase card. The review team opined that the risk ratings could be mitigated by
standardizing operating procedures, issuing policy and conducting training.
USASMDC/ARSTRAT CAMO concurred and addressed each ofthese areas in the corrective
action plan accepted by DASA(P). The findings that were assessed as high risk and the
corrective action are as follows:




                                                 3




                                                               30
SMDC-RDC-A
SUBJECT: Agency Response to Discussion Draft Report 02011-DOOOAS-0004.000, CNTPO
Task Orders Have Excess Fees, and the Army was Incorrectly Billed

        (i) Within the Continuity of Operations Plan (COOP) section of the PMR, the reviewers
noted that USASMDC/ARSTRAT CAMO was included in the overarching SMDC COOP, but
did not have a separate COOP specific to USASMPC/ARSTRAT CAMO. The correct action
plan included development of a COOP for USASMDC/ARSTRAT CAMO. That plan has been
developed and has been deployed during COOP exercises.

       (ii) Within the Contract Execution section of the PMR, the reviewers assessed the risk of
contract execution as high based upon a lack of adequate preaward and non-competitive
documentation. 1l1e findings were similar to a finding in the 2009 IG report in that contract file-S
were incomplete, but not relevant to the 2011 draft IG report.

       •       Files where the DD 2579, Small Business Coordination Report were not included.
               USASMDC/ARSTRAT CAMO disputed this finding, advising that we were unable
               to replicate the findings of the tean1. It appeared that some of the contract actions
               cited .a s missing pre-award documentation did not require those documents. For
               exarnple, many of the actions were SBIRISTTR, contracts resulting from Broad
               Agency Announcements or actions otherwise authorized by statute. These actions do
               not require a 002579. In addition, one file noted by the team was a task order and
               the DD 2579 requirement was satisfied at the basic contract/solicitation level. This
               fmding is not relevant to the 2011 draft IG report.

           •     There were no Determination and Findings to support the use of Cost-Plus-Fixed-
                 Fee type wntracts. USASMDC/ARSTRAT CAMO did not dispute this finding.
                 Files had no evidence of synopsis of proposed contract or contract awards as
                 required by FAR 5.20 1. USASMDC/ ARSTRAT CAM 0's review determined that
                 only 3 contracts out of the total actions reviewed required a synopsis. Policy
                 guidance was issued to emphasize and remind personnel regarding synopsis
                 requirements. This fmding is similar to a finding in the 2009 IG report in that
                 wntract flies were incomplete, but not relevant to the 2011 draft IG report.

           •     Files did not contain evidence that a Price/Cost Analysis was completed and no
                 actual statement in the file that the contractor's final negotiated price is considered
                 fair and reasonable. The files included were simplified acquisitions where a full
                 pri.celcost analysis report was not required. However, USASMDC/ARSTRAT
                 CAMO agreed that additional emphasis was required in this area and addressed it
                 in a "Back to Basics" training course that was conducted on 2010. This finding is
                 similar to a finding in the 2009 IG report in that contract files were incomplete, but
                 not relevant to the 20 II draft IG report.

           •     There is no evidence in the file that the contracting officer checked the Excluded
                 Parties List befo•·e contract award. USASMDC/ARSTRAT CAMO concurred
                 with the finding and executed a policy and compliance reminder drawing attention


                                                    4




                                                                  31
                          Final Report
                           Reference




                        Revised




FOR OFFICIAL USE ONLY
          32
                                                                                                         Final Report
                                                                                                          Reference



SMDC-RDC-A
SUBJECT : Agency Response to Discussion Draft Report 020 11-DOOOAS-0004.000, CNTPO
Task Orders Have Excess Fees, and the Army was Incorrectly Billed

When this error was discovered, USTC was immediately notified. USTC concurred with the
issue and advised the error was the result of a miscalculation. USASMDC/ ARSTRAT CAMO is
working with USTC and OFAS to recover the fee overage, including credits on task orders that
are physically complete. Further, USTC reviewed the basis for this error and made changes to its
intemal review process to prevent future incidents of this nature (Encl 1). It is anticipated that     Enclosures omitted
all required credits will be recovered no later than30 September 2011.                                 because of length.
                                                                                                       Copies will be
As stated, USASMDC/ARSTRAT CAMO concurs with the recommendation; however, the
significance of this mathematical error was overstated in the draft report. It is not practicable
                                                                                                       provided upon
to verify every calculation in every proposal received. To expect such would increase the              request.
manning requirement for every contracting organization within tlte DoD; an expectation that
cannot be satisfied with the limited resources authorized.
                                                                                                       Revised
        (d) RECOMMENDATION A.2.A - RECOUP EXCESS FIXED FEES THAT
 HAVE BEEN PAID TO RAYTHEON TECHNTCAL SERVICES COMPANY, LLC
 (RAYTHEON). Nonconcur with recomme11dation to recover purported excess fees owed bv
.Raytlteon. USASMDC/ ARSTRAT CAMO con cur.f thattltere is a misunderstanding as to tlte
terms o fth e solicitation and resultant contract regarding the fee rate that should be allowable
on Materials and ODCs. Further, USASM DC/ARSTRAT CAMO agrees that there was an
ambiguity in the terms of the solicitation and contract that lead to the awarding Contracting
Officer' s failure to accept the fcc rate offered in Raytheon's Final Proposal Revision (FPR).
However, for the reasons stated below, fees awardetl to tlate and paid are not recoverable for
the reasons stated below.

The DoD IG team' s premise concerning this finding is based upon the IG' s interpretation that the
Materials and Other Direct Costs (ODCs) fee rates proposed by the prime contractors in their
respective final proposal revision are (or should have been) incorporated into the awarded
contracts. However, as discussed below, it is our viewpoint that the DoD lG team' s premise and
interpretation represents one interpretation of the terms of the solicitation/contract. A separate
interpretation can be and was drawn based upon the terms of the contract inherited ·by successor
Contracting Officers. Today, the acquisition workforce is faced with substantial turnover. The
successor Contracting Officers reviewed the terms o(tlle co11tract that they took over to
administer, which was the final documented agreement between the parties. A reasonable person
would agree that it is neither realistic nor practicable to expect successor Contracting Officers
that inherit contracts in a post award state to review preaward documentation to ensure the terms
of the contract they inJterit are consistent with the prcaward documentation.

The following discussion demonstrates that there was not a meeting of the minds regarding the
fee rates that should have been and were incorporated into the basic contracts. Given that, it is
unrealistic to believe that successor Contracting Officers would have understood the intent of the
ContractiJtg Officer awarding the basic contra.cts and enforced fee rates that were 1.1 01 i11cluded
in the co11frtzcts they were provided to administer.


                                                 6




                                                               33
                          Final Report
                           Reference




                        Enclosures omitted
                        because of length.
                        Copies will be
                        provided upon
                        request.




FOR OFFICIAL USE ONLY
          34
                                                                                                        Final Report
                                                                                                         Reference




SMDC-RDC-A
SUBJECT: Agency Response to Discussion Draft Report D20ll-DOOOAS-0004.000, CNTPO
Task Orders Have Excess Fees, and the Army was Incorrectly Billed

         (iii) Since issuance of that letter, in conjunction with assigned legal counsel
USASMDC/ARSTRAT, the CAMO Director has conducted additional analysis and obtained
further information that has bearing on this issue. Specifically, review of this additional
information and the terms of the contract, which was executed as a bilateral agreement,
substantiates that the terms of the awarded contract are clear in that ( 1) the final proposed fee
rates for Materials and ODCs were not accepted by the Government, and (2) were not
incorporated into the resultant contract. Therefore, for purposes of task order pricing, the
allowable fee on Materials and ODCs falls wit/lilt a range o(O to 5%, as proposed by Raytheon
at the task. order level.

         (iv) ln addition, Raytheon's response (EnclS) to the initial CAMO inquiry concerning         Enclosures omitted
t11e fee highlights the tenns ofthe contract, which further substantiate the Government's intent to   because of length.
permit awardees the ability to propose fee on Materials and ODCs up to a 5% mttximum fee              Copies will be
limit.
                                                                                                      provided upon
Raytheon's arguments are compelling and supported by relevant case law and prior DoD audit            request.
reports. Of particular note is the cited DoD fG report No. D-2011-073, published E4 June 2011,
which refers to a contractor's proposal provision being irrelevant where the parties failed to
incorporate it into the resulting contract. The report states, "[before the audit, KRCC-A and
DCMA denied the contractor 's request for equitable adJustment for parts reimbursement and
additional warehouse space. Regarding the parts reimbursement, the contractor's initial
proposal included a clause allowing the contractor to receive an equitable adjustment ifparts
reimbursement costs exceeded $15 million per year. KRCC denied the request for reimbursement
because the contractor 's initial proposal was not incorporated into the final contract. "

This same principle applies to the fee on Materials and ODCs where the terms of the contract
provided the opportunity for the contractor to propose a fee within a range ofO to S% and tlle
FPR fee rates were not incorporated into lite resultaftt contract.

        (v) The soHcitation that conveyed the Government's requirements (Encl 6) included
Material and ODC Contract Line Items (CLfNs). The Government's intent regarding allowable
fee on Materials and ODCs was clarified through communications with prospective offerors
during the acquisition solicitation process. Of importance, the initial solicitation authorized 0%
fee on ODCs. However, in response to industry questions posed prior to the receipt of proposals
(Encl 7), the Government advised prospective offerors, "[t]he Government is considering a
capped fee for CL/N [0}004 (Material) and CLIN 0007 (ODCs): ifutilized see RFP AMD 0004. 1
Subsequently, solicitation Amendment 0004 (Encl 8) was issued, which changed the
nomenclature of the Material and ODC CLINs and authorized a range of fee rates (i.e., "A
MAXIMUM OF 5.0% AND A MINIMUM OF 0.0% FEE ALLOWABLE ON THIS CL/N. ").
As quoted below, Amendment 0004 also modified the proposal preparation instructions (page

1
    Question Set I - Question 192 (see Encl 7)


                                                 8




                                                              35
                                                                                                        Final Report
                                                                                                         Reference




SMDC-RDC-A
SUBJECT: Agency Response to Discussion Draft Report 02011-DOOOAS-0004.000, CNTPO
Task Orders Have Excess Fees, and the Army was Incorrectly Billed

33) to advise prospective offerors that a maximum fee of5% was allowed on ODCs (emphasis
added).

               If Other Direct Costs (ODC) are split between the prime
               Contractor and Subcontractor(s), the offeror shall provide a chart
               showing the ODC proposed by the prime Contractor and the
               proposed ODC by the Subcontractor(.s) (to include teaming
               partners/members). Offerors should show that the total proposed
               loaded ODC costs equal the amounts in Section B ofthe RFP. A
               Maximum Fee of5% is allowed on ODC. Examples of
               anticipated ODC for which cost has been provided include resting
               equipment, dereclion equipment, navigation equipment, secure and
               nonsecure communications equipment, photo equipment, radar
               equipment and night vision systems.

During contract administration, this approach permits prime contractors to propose a fee (up to
the 5% maximum fee) based upon the nature of the requirement presented in each task order and
the competitive position each firm elected to take in the competition of each task order. For
example, task order requirements involving less risk will typically involve lower fee rates, while
high risk endeavors (such as performance in a combat area or implementation of a novel
approach) may warrant a higher tee rate.

        (vi) The solicitation also advised prospective offerors that the proposed firm, fixed price
labor rates and the cost-plus-fixed-fee labor rates (which were ftllly burdened rates inclusive of
profit/tee), as well as indirect rates that would be applicable to Materials, ODCs, Travel and
Defense Base Act insurance (hereafter referred to as DBA), would be incorporated into the basic
contract as Attachment 6: BO Rates for Contract. Specifically, the provision entitled
PRENEGOTIATED PROFIT ARRANGEMENTS was included in Section B of the solicitation,
which states (emphasis added):

               Profit for each direct labor hour is included in rhe fixed-price
               direct labor rates set forth in Exhibit BO in Section J ofthis RFP.

               Fixed Fee for each direct labor hour is included in the cost plus
              fixed fee labor rates set forth in Exhibit BO in Section J ofthis
               RFP.

               There is no fee/profit applicable to travel and DBA Insurance.

Moreover, the worksheet provided to contractors to complete for the add-ons for
Materials and ODCs did not include fee rates (Encl 9).                                                Enclosures omitted
                                                                                                      because of length.
                                                                                                      Copies will be
                                                  9
                                                                                                      provided upon
                                                                                                      request.




                                                                 36
SMDC-RIDC-A
SUBJECT: Agency Response to Discussion Draft Report D2011-DOOOAS-0004.000, CNTPO
Task Orders Have Excess Fees, and the Army was Incorrectly Billed

    (vii) Section B of the solicitation also included a provision entitled PRENEGOTIATED
LABOR AND OTHER DIRECT COST INDIRECT RATES, which states (emphasis added):

             The parties agree that tire fixed-price rates and cost plusfvcedfee
             (CPFF) rates set forth in Exhibit BO. Section J ofthis RFP, shall
             be utilized to establish task order (1'/ 0) prices.
             For labor performed in foreign countries, the specific countty 's
             OCONUS labor rates shall be applicable and shall be in
             accordance with the following provision, entitled "EMPLOYEE
             COMPENSATION IN FOREIGN COUNTRIES."
             The Exhibit BO fu:etl prices and cost plusfu:edfee prices per
             DPPH are applicable for contract performance, as ordered by
             properly executed task orders hereunder.
             (NOTE TO OFFEROR: Complete this provision in accordance
             with Section L- Insh·uctions, Conditions and Notices to Bidders, "
             L.4.5 VOLUME V- COS'i; SECTION VI - PRIME DIRECT
             LABOR. The tables in Exhibit BO shall be completed and included
             in Volume/, General.)

             Fb:ed-priced Level-of Effort T/Os will be issued at a rota/ price.
             The price shall be arrived at by utilizing the appropriate fixed-
             price direct labor (including profit) categ01y rates (i.e. rates by
             contractor site or Government site and by CONUS or OCONUS),
             andfu:ed-price ODC add-on rates l'etforth ill Exflibit BO.
             Cost Plus Fixed Fee T/ Os will be issued at a total CPFF The
             total CPFF shall be arrived at by utilizing the appropriate CPFF
             direct labor ctrtegory rates (i.e. rates by contractor site or
             Government site and by CONUS or OCONUS) set forth in Exhibit
             BO.

             Fixed-Price labor witlr Cost-Plus Fixed Fee Oilier Direct Cost
             T!Os will be issued with a) a defined number of hours from specific
             labor categories using the fixed-price direct labor (including
             profit) rates set forth in Exhibit BO; b) an estimated cost for DBA
             i11surance, travel a11d material, illclutling associated i11direct
             costs at tltefu:ed indirect rates specified in Exhibit BO, and fee,
             as applicable. Note that there are CONUS and OCONUS
             established loaded composite labor rates. OCONUS (by specific
             country) rates are based on the combination ofDanger Pay (as
             applicable by specific country), Post Allowance (as applicable by
             specific country) and Hardship Differentials (as applicable by
             specific country) combined factors.


                                              10




                                                           37
                                                                                                       Final Report
                                                                                                        Reference




SMDC-RDC-A
SUBJECT: Agency Response to Discussion Draft Report 02011-DOOOAS-0004.000, CNTPO
Task Orders Have Excess Fees, and the Anny was Incorrectly Billed

               CPFF labor with Cost and/or Cost-Plus Fixed Fee Other Direct
               Cost T/Os will be issued with a) a defined number ofhours from
               specific labor categories using the CPFF direct labor rates set
               forth in Exhibit 80; and b) an estimated cos/for DBA insurance,
               travel and material, including associated i11direct costs at the
               indirect rates specified in Exhibit BO, and fee, as ~lpplicuble.

               Note that there are CONUS and OCONUS established loaded
               composite labor rates. OCONUS (by specific country) rates are
               based on the combination ofDanger Pay (as applicable by specific
               country), Post Allowance (as applicable by specific country) and
               Hardship Differentials (as applicable by specific country)
               combined factors.

               For labor performed in foreign countries only, the above labor
               rates shall be adjusted in accordance with the following provision,
               entitled "Employee Compensation in Foreign Countries. "

         (viii) The nomenclature of the Material and ODC CLINs and the above provisions set
forth in Section B oftbe solicitation were made part of the awarded contract (as an example, see     Enclosures omitted
Encl 10, Raytheon contract award). The solicitation also incorporated Attachment 4- DO 254,
Contract Security Classification and Attachment 6 - 80: Rates for Contract in full text, and
                                                                                                     because of length.
referenced at Attachment 7 the offeror's Small Business Participation and Small Busi!less            Copies will be
Subcontracting Plan and Section K - CertificatiOilS and Representations. No otlter terms from        provided upon
lite offerors' proposals were i11corporaletl i11to the contract, to i11clude incorporatio11 bv       request.
reference.

Attachment 6 sets forth (I) the awarded contractor's indirect rates applicable to materials, ODCs,
travel and DBA and (2) the awarded contractor' s labor rates (see Encl 5) which set the maximum
rate (inclusive of profit/fee) that may be proposed (and in the case of a fiXed price order,
invoiced). As stated in Section B of the awarded contracts, these rates formed the basis for
pricing task orders. Not ilzcluded i11the awarded contract, was Ravtluon 's FPR fee rates on
Materials and ODCs (empllasis added).

        (ix) As discussed above, during the solicitation phase the allowable ODC fee rate was
revised from 0% (as presented in the initial RFP), to a range from 0 to 5%, (as stated in
Amendment 0004 to the solicitation). Pursuant to the RFP, FACTOR 4: COST/PRICE
(emphasis added), "[v]arious price analysis techniques will be used in determining the realism
and reasonablenes·s ofproposed base labor rates, loaded labor rates, add-ons to ODCs, and
bottom-li11e prices related to tile overall cost and Task Orders 0001, 0001 and 0003. The
Government will make an in-depth analysis ofexcessively low labor rates, loaded labor rates,
DBA lnsw·ance, ODC add-ons, and botlom-litze prices proposed. Proposed labor hours, travel
dollars, material dollars and other direct costs will be evaluated to determine whether they are

                                                II




                                                             38
                          Final Report
                           Reference




                        Enclosures omitted
                        because of length.
                        Copies will be
                        provided upon
                        request.




FOR OFFICIAL USE ONLY
          39
                          Final Report
                           Reference




                        Enclosures omitted
                        because of length.
                        Copies will be
                        provided upon
                        request.




FOR OFFICIAL USE ONLY
          40
                          Final Report
                           Reference




                        Enclosures omitted
                        because of length.
                        Copies will be
                        provided upon
                        request.




FOR OFFICIAL USE ONLY
          41
                                                                                                       Final Report
                                                                                                        Reference




SMDC-RDC-A
SUBJECT: Agency Response to Discussion Draft Report D20ll -DOOOAS-0004.000, CNTPO
Task Orders Have Excess Fees, and the Army was Incorrectly Billed

Regarding the concerns regarding overpayment of fees, when the concerns regarding potential
overpayment of fee were highlighted, the Director tasked Raytheon to conduct a self-audit of
fees paid on Materials, ODCs and travel. The self-audit conducted by Raytheon on fees paid on
travel ulenti(ied excess fees paid on travel tltat were not identified bv tire IG (see Encl16).
                                                                                                     Enclosures omitted
Raytheon is in due process of executing credit invoices for these overpayments. It is anticipated    because of length.
that these invoices will be processed before 30 September 201 1.                                     Copies will be
                                                                                                     provided upon
          (2) REC OMMENDATION A.2.B - INSTITUTE AN INTERNAL CONTROL                                  request.
  PLAN THAT ENSURE S THAT CONTRACTING OFFICERS ARE VEIUI<' YTNG THE
  ACCURACY OF ALL FEES BEFORE AWARDING FUTURE TASK ORDERS.
  USASMDC/A RSTRAT CA MO cottcurs. Duri ng the conduct of the audit, a memorandum (Encl
  17) was issued by the Director, Contract Operations Directorate A, CAMO, requiring contracting
  officers to verify calculations within proposals received to ensure no mistakes in proposals or
  other errors we apparent, and to ensure the rates proposed were equal to or less tl1an the
··maximum rates set forth in the CNTPO contracts. This topic was also covered during
  information training sessions with the CNTPO contracting support team during the May 20 11
  timeframe.

        (3) RECOMMENDATION A.2.C - RE QUIRE THAT CONTRACTING
OFF ICERS UPDATE THE STANDARD LANGUAGE USED TN THE INDEFINITE-
DE LIVE RY, INDEFINITE-QUANTITY CONTRACTS AND ALL OPEN T ASK
ORDERS FOR EACH PRIME CONTRACTOR TO REFLECT THE
CONTRACTUALL Y AGREED T O FIXED FEES FOR MATE RIALS AND OTHER
DIRECT COST S. USASMDCIARSTRA T CAMO cottcurs in part. The basic contracts are
being modified (completion expected NLT 30 September 2011) to update terms and cond itions
of the contract, which include language that will incorporate the FPR fee rates, among other
changes to the terms and conditions. It should be noted that the update to Raytheon's contract is
predicated upon the successful negotiation of the fee rates on Materials and ODCs, which is not
yet final.

Regarding the modification of existing task orders, the workload associated with this
recommendation is prohibitive particularly given that there were no findings to warrant
execution of this recommendation. Regardless of the terms of any contract, billing errors. will
occur. More aggressive scrutiny of invoices and supporting documentation is a more prudent
and practicable approach, which is discussed further in the response to Finding B below.

         (4) REOOMMENDATION A.2.D. -STOP ISSUING T ASK ORDERS OR                                     Revised
MODIF ICATIONS UNTIL CONTRACTING OFFICERS COMPLETE THE ACTION TN
RECOMMENDATION A.2.C. USASMDC/ARSTRA T CAMO n onconcurs. Aside from the
concern with Raytheon's fees, which USASMDC/ARSTRAT CAMO has demonstrated above
are not recoverable and has discussed a remedy to, there were no findings that would warrant a
complete halt of execution of contractual actions under this contract that provides direct support
to th.e warfighter. Moreover, failure to modify task orders, to implement agreed to terms and

                                                15




                                                             42
                                                                                                          Final Report
                                                                                                           Reference




SMDC-RDC-A
SUBJECT : Agency Response to Discussion Draft Report D20 11-DOOOAS-0004.000, CNTPO
Task Orders Have Excess Fees, and the Army was Incorrectly BiLled

conditions (for example, provision of incremental funding) would amount to a bre-ach of contract
on the Government's part, resulting potential litigation liability in addition to the impacts created
on the organizations and units supported by these task orders.

   b. Finding B.

    ( I) RECOMMENDATION B.l- OVERPAYMENT OF INVOICES -
NORTHROP GRUMMAN. USASMDCIARSTRAT CAMO concurs wit/1 the
                                                                                                        Enclosures omitted
recommendation.
                                                                                                        because of length.
It is understood that the IG worked directly with Northrop regarding credits owed to the                Copies will be
Government fegarding the following invoices. We received infom1ation from Northrop that the             provided upon
credits have been issued. These can be found at Encls 18 and 19.                                        request.
       (2) RECOMMENDATION B.2 - COORDINATION CNTPO AND
USASMDC/ARSTRAT CAMO. USASMDCIARSTRA T CAMO concurs. However, it does                                   Redirected
not appear that this report was issued to the Department of the Navy for its comment Therefore,
recommend rewording Recommendation B.2 as stated below, which USASMDC/ARSTRAT
CAMO has coordinated with CNTPO.

           Recommend that the Director ofContract operations, Directorate A, US.
           Army Space and Missile Defense Command, Contracting and Acquisition
           Management Office coordinate with the Program Executive, DoD Counter
           Narcoterrorism Technology Program Office to determine whether a mare
           detailed invoice approval process is necessary.

Additionally, note that CNTPO has initiated efforts to enhance its invoice review process. Of
in1portance, in June, 201 I, CNTPO conducted an internal invoice review process analysis, which
identified several areas for enhancement and the following improvement actions:

       •   Initiate personnel action to hire an experienced individual whose sole responsibi lity
           will be the detailed review of all invoices prior to submission to the COTR/ COR for
           review and approval. The individual was hired and started work at CNTPO on
           Monday, I August 2011.

       •   Develop a more detailed invoice review check List to ensure consistency of reviews
           and enhance identification of potential problems. A copy of the draft checklist is
           provided at Encl20. This checklist will be treated as a living document, with
           revisions made as warrru1ted to ensure a comprehensive review of invoices and
           suppOrting documentation.

       •   Refine the CNTPO invoice review process to include the invoice reviewer. Encl 21
           provides the proposed workflow.

                                                 16




                                                               43
                                                                                              Final Report
                                                                                               Reference




SMDC-RDC-A
SUBJECT: Agency Response to Discussion Draft Report D2011-DOOOAS-0004.000, CNTPO
Task Orders Have Excess Fees, and the Army was Incorrectly Billed

In addition to the action taken by CNTPO, USASMDC/ARSTRAT CAMO Directorate A will
institute a random review of invoice certifications executed by the COR/COTR on I October
20 II. The review checklist is provided at Encl 22.                                         Enclosures omitted
                                                                                            because of length.
                                                                                            Copies will be
                                                                                            provided upon



                                           ?!1~,f~
                                                                                            request.

Encis
                                              Director, o  'ng and
                                                Acqui li Management Office




                                            17




                                                        44
                                                                                                      Final Report
                                                                                                       Reference




SMDC-RDC-A
SUBJECT: Agency Response to Discussion Draft Report D20 11-DOOOAS-0004.000, CNTPO
Task Orders Have Excess Fees, and the Army was Incorrectly Billed

                                SUMMARY OF ENCLOSURES                                               Enclosures omitted
                                                                                                    because of length.
I. USTC fee calculation corrective action
                                                                                                    Copies will be
2. Solicitation W9113M-06-R-0014, Amendment 7                                                       provided upon
                                                                                                    request.
3. Raytheon FPR Section IX

4. Letter to Raytheon, dated 6 June 2011 , Subject W9113M-07-D-0008, Other Direct costs
(ODCs) and Materials Fee

5. Raytheon letter dated 6 July 2011 , Subject CNTPO Contract W9113M-07-D-0008, Other
Direct Costs (ODCs) and Materials Fee

6. Solicitation W9113M-06-R-0014 (conformed copy through Amendment 0007)

7. Question Set I- Question 192- to Solicitation W9113M-06-R-0014

8. Solicitation W9113M-06-R-0014, Amendment 4

9. Solicitation W9113M-06-R-0014, Worksheet provided with pricing instructions

!0. W9113M-07-D-0008

II. W9113M-07-D-0008, TORP 0010, Raytheon Cost Proposal

12. W9113M-07-D-0008, TORP 0078, Raytheon Cost Proposal

13. CNTPO MAIDIQ Task Order Evaluation Guide

14. Task Order Evaluation Example

15. W9113M-07-D-0008-0021

16. Raytheon letter dated 9 May 20 I I, Subject Self -Audit of Invoices Prior to 1 October 2010 -
W9113M-07-D-0008

17. Memorandum from Director, Contract Operations Directorate A to CNTPO Contracting
Officers/Contract Specialists, dated 14 February 2011

18. W9113M0-07-D-0007-0020, invoice BVN0007

19. W9113M0-07-D-0007-0020, invoices BVN0022 and BVN9024

                                               I&




                                                            45
                                                                                     Final Report
                                                                                      Reference




SMDC-RDC-A
SUBJECT: Agency Response to Discussion Draft Report D20JJ-DOOOAS-0004.000, CNTPO
Task Orders Have Excess Fees, and the Anny was Incorrectly Billed

                                                                                   Enclosures omitted
20. CNTPO Invoice Review Checklist                                                 because of length.
21. CNTPO Invoice Review Process
                                                                                   Copies will be
                                                                                   provided upon
22. USASMDC/ARSTRAT- [nvoice Checklist                                             request.




                                        19




                                                  46
